                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A12060043                                                                       Page 1 of 1



                  OIG conducted an inquiry into an allegation of plagiarism in an NSF proposa1. 1 Our
         initial analysis found extensive plagiarism in the proposal, particularly in the Background and
         Plan of Work sections.

                We proceeded directly to our own investigation because the institution is a small business
         (Companyi and because ofthe extent of the alleged plagiarism. The Subjece and Company
         President4 did not dispute the allegation, but explained "the extenuating circumstances"
         surrounding submission of what they called an "unfinished proposal."

                 We concluded, based on a preponderance of the evidence, that the Subject knowingly
         committed plagiarism, and that the plagiarism constituted a significant departure from accepted
         practices ofhis professional community. We further concluded that the Subject authored another
         proposal to another federal entity that contained extensive plagiarism.

                 We recommended actions to be taken to protect the federal interest. The Senior Advisor
         to the Director concurred with our recommendations.

                This memo, the attached Report of Investigation, and the decision of the Senior Advisor to
         the Director constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
       DIRECTOR                                                            FEB Z5 20M-


CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:      Notice of Research Misconduct Determination


Dear D r . -

You served as Principal Investigator on a,...,.,--..,..,.{"'"'
Foundation        enti
                   As documented in the attached Investigative Report prepared by NSF's
Office oflnspector General (OIG), this proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or perfom1ing research funded by NSF ... " 45 CFR 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 689.1(a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure from accepted practices of the relevant research
            community; -
        (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
            and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

Your proposal to NSF contained substantial copied material: 224 lines, nine figures, and eleven
embedded references copied from eight sources. You acknowledged this copied material and
cited to exceptional personal circumstances as an explanation. The OIG obtained a second
proposal you authored which was submitted previously to another USG agency. It also
                                                                                                      Page2
.. contained substantial copied material: 133 lines, one figure, and six embedded references from
   five sources, calling into question the exceptional nature of the action in question.

 Your submission of a proposal to NSF with substantial copied material constitutes plagiarism
 and meets the applicable definition of "research misconduct" set forth in NSF's regulations.
 Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
 misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
 Investigative Report, in particUlar the OIG's analysis of your other proposal, NSF has
 determined that, based on a preponderance of the evidence, your plagiarism was committed
 knowingly and constituted a significant departure from accepted practices of the relevant
 research community. I am, consequently, issuing a finding of research misconduct against you.

 1-~SF's regulatior1s establisl1 tl=.uee categories of actiOilS (Group I, II, a11d lll) that can be taken i:n
 response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
 of reprimand; conditioning awards on prior approval of particUlar activities from NSF; requiring
 that an institution or individual obtain special prior approval of particUlar activities from NSF;
 and requiring that an institutional representative certify as to the accuracy of reports or
 certifications of compliance with particUlar requirements. 45 CFR 689.3(a)(l). Group II actions
 include award suspension or restrictions on designated activities or expenditures; requiring
 special reviews of requests for funding; and requiring correction to the research record. 45 CFR
 689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
 participation as NSF reviewers, advisors or consultants; and debarment or suspension from
 participation in NSF programs. 45 CFR 689.3(a)(3).

 In determining the severity of the sanction to impose for research misconduct, I have considered
 the seriousness of the misconduct, the determination that it was committed knowingly and the
 fmding of a pattern of plagiarism. I have also considered other relevant circumstances. 4 5 CFR
 689.3(b).

After assessing the relevant facts and circumstances of this case and NSF's regulations, I am
taking the following actions:

     •   Within one year of the date of this notice, you must complete a responsible conduct of
         research training program, for which the instruction shoUld be an interactive format (e.g.,
         an instructor-led course) and which specifically includes discussion of citation practices.
         You must provide documentation of the program's content and proof of its completion to
         the OIG;
     ~   For a period of three years from the date of this notice, you are required to submit
         certifications to the OIG that any proposal or report you submit to NSF as a Principal
         Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material;
         and
     •   For a period of three years from the date of this notice, you are required to submit
         assurances from a responsible official of your employer that the document does not
         contain plagiarism, falsification or fabrication.
                                                                                                           Page 3

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230. -


Procedures Governing Appeals

 Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
 fmding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
 addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
-Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
 decision on the finding of research misconduct will become final.

For your information, we are attaching a copy of the              lHn.u.uJ•...,   regulations. Should you have
any questions about the foregoing, please cor1tac:tl                              Deputy General Counsel, at
(703)292. . .



                                                         Sincerely,

                                                           ~c&.lka~-y-
                                                  ~---=::::;::.

                                                         Fae Korsmo
                                                         Senior Advisor to the Director



Enclosures:
Investigative Report -
45 CFR Part 689
SENSITIVE                                                                             SENSITIVE




      National Science Foundation
        Office of Inspector General




                 Report of Investigation
                Case Number A12060043
                         September 3, 2013

                        This Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Form 22b (1/13)
SENSITIVE                                                                           SENSITNE


                                     Executive Summary

Allegation:          Plagiarism

OIG Inquiry
and Investigation:   OIG identified eight sources from which 224lines, nine figures, and 11
                     references were apparently copied into a declined NSF proposal. The
                     Subject and his Company acknowledged the proposal contained
                     inadequately cited text, but argued its inclusion was due to extenuating
                     circumstances.

                     OIG concluded, based on a preponderance of the evidence, that the
                     Subject knowingly committed plagiarism, and that the plagiarism
                     constituted a signi±icant departure ±rom accepted practices of his
                     professional community.

OIG
Assessment:
                 •   The Act: The Subject plagiarized 224lines, nine figures, and 11
                     references from eight sources into one proposal.
                 •   Intent: The Subject acted knowingly.
                 •   Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                 •   Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices.
                 •   Pattern: The Subject authored and submitted another proposal to another
                     federal entity that contained extensive plagiarism.

OIG
Recommendations:
              •      Make a finding of research misconduct against the Subject.
              •      Send the Subject a letter of reprimand.
              •      Require certifications from the Subject for a period of three years.
              •      Require assurances for a period of three years.
              •      Require certification of attending a responsible conduct of research
                     training program within one year.




                                              1
SENSITIVE                                                                             SENSITIVE


                                       OIG's Inquiry and Investigation

       OIG conducted an inquiry into anallegation that the Subject 1 submitted an NSF proposal
(Proposal1 2) containing copied text. Our initial analysis found ·193 lines, five figures, and 11
embedded references copied from six sources. 3 The copied material was contained in the
Problem Background section and in Tasks 3, 4, 6, and 7 of the Plan of Work section.

        Because the institution is a small business (Company) 4 and because of the extent of the
alleged plagiarism, we proceeded directly to our own investigation. We contacted the Subject
and asked him to respond to the allegations, to provide his CV, and to answer additional
questions. 5

       The Company provided a response, 6 which included a cover letter signed by the
Company's president (President), 7 the Subject and the President's responses to our questions, the
Subject's CV, and materials related to a non-NSF proposal8 (Proposal2) the Subject authored.

         The President said "These violations are clear and we do not dispute your findings," but
instead explained "the extenuating circumstances" surrounding submission of what he called an
"unfinished proposal. " 9 The Subject, he said, wrote ninety percent of Proposall intending to
fmish it before his fiance, who he had not seen in a year, arrived from overseas. -The Subject
"cut and pasted those sections from the 6 sources in question as he built the outline and wrote
proposal with the plan to go back at the end to rewrite and citti them." 10 However, ten days
before Proposal! was due, the Subject's fiance arrived and they vacationed. The Subject forgot
about completing Proposall and, "As a result and as a matter of normal process, which we are
now changing, our project manager uploaded the unfinished proposal to the NSF without talking
to [the Subject]-" 11

        The Subject confirmed that "This problem happened because of some personal issues that
                                                                        12
I was dealing with at the time range when I was preparing the proposal." He said he intended
"to rewrite the proposal with my own thoughts, but unfortunately I forgot to revise it and it was
sent to NSF without my revisions." 13 He acknowledged there was additional copied material in
Proposal! and was glad damage from the unfunded and undistributed proposal was minimal.




7---
5
6



8
9
10
11
    Tab 3.
    Tab 4.

  NASA proposal, submitted
  Tab 4, pg 1.
   Tab 4, pg 2. All quotations herein are sic.
                                                 (Declined).


   Tab 4, pg 1.
12
   Tab 4, pg 7.
13
   Tab 4, pg 7.


                                                               2
SENSITIVE                                                                                                   SENSITIVE


                 As evidence that Proposall was not fmalized, the response noted that Proposall:

         •       did not include the name of a supporting person or his/her letter of support;
         •       did not include the Biographical Sketch of a Company employee named in the budget;
         •       incorrectly said the Company leased two facilities; and
                                                                                                  14
         •       narned a researcher from whose work material was copied as a suggested reviewer.

        Company employees reviewed Proposal2, the only other proposal the Subject solely
authored on its behalf, and found material in the background section that, though common in the
field, was inadequately cited. 15

        The Subject said he "never had any formal instruction or self-study on the definition of
     ~   -   -
           -- 1       ?,. - --            _,   "'          -- -          -   -        -        -   ~   ..   •   ..   •
plagmnsm."·~ He never took the responsible conduct o:tresearch course hls graduate mst1tut10n
(University) 17 offered, or a course on grant writing and said he uses a style manual only if the
target funding agency has one. He regretted his action and "wants to contact each of the authors,
apologize to them directly and do what is right." 18

        The President agreed to directly mentor the Subject and said the Company already
changed its internal review process to require the project manager "review all proposals at three
                                                                                       19
points in the writing cycle- after outline, after the first draft and prior to upload." .

        Based on the Subject's statements, were-reviewed Proposall. Were-annotated Proposall
to include the additional copied material the Subject identified, which constituted Task 10 of the
Plan of Work section. 20 As illustrated in the chart below, the re-annotated Proposal I contained
224 lines, nine figures, and 11 embedded references from eight sources.

                                                                  Prol!_osall
                                 Source A (article)               30 lines, 7 embedded references
                                 Source B (article)               37lines
                                 Source C (article)               20 lines, 1 embedded reference
                                 SourceD (article)                70 lines, 5 fi@!es
                                 Source E (article)               6 lines, 1 embedded reference
                                 Source F (article)               3 0 lines, 2 embedded references
                                 Source G (PowerPoint)            l figure
                                 Source H (dissertation)          31 lines, 3 figures

        We also reviewed Proposal2 that the Company provided and found approximately 13 3 .
lines, one figure, and six embedded references copied from five sources. 21 We found the extent

14
   Tab 4, pg 4.
15
   Tab 4, pg 2.
16
   Tab 4, pg 11.

17··~~~···
18
19
   Tab 4, pg 2.
   Tab 4, pg 2.
20
   Tabs 5.
21
   Tab 6.


                                                                     3
SENSITIVE                                                                                SENSITIVE


  of copied text in Proposal2, which the Company submitted to another Federal agency, extremely
  troubling and called into question the President's statement that the plagiarism "is out of
  character for" the Subject.22 First, the very existence of the substantial plagiarism leads us to
  conclude that the plagiarism identified in Proposall cannot solely be attributed to the Subject's
  personal circumstances. These circumstances were clearly not at issue in 2011 when Proposal2
  was submitted to the other agency. Second, as in Proposal I, a significant portion of the copied
  text in Proposal2 is contained in the actual Work Plan and embedded references are copied along
  with the cut and pasted text. Third, the language in Proposal2 is changed to make the proposed
  research appear novel when in fact the same or similar ideas were proposed in the original
 · sources. 23 Last, although the Subject states in Proposal2's comment boxes, that the contributions
   of some of the uncited authors are "fully acknowledged in Part 5.2 (Related Research) of this
  proposal,"24 Part 5.2 does not demarcate the cited and referenced verbatim copied text; the
  material in that section is therefore also inadequately cited. We therefore conclude that the
   inadequately cited text in Proposal I was not "out of character" for the Subject or due solely to
   the "extenuating circumstances;'' but rather inclusion of cut and pasted material is part of the
. Subject's repertoire and thus indicates a pattern of plagiarism. Additionally, the pattern identified
   leads us to conclude the Subject acted knowingly in cutting and pasting material into Proposal I.

         We determined the standards of the Subject's research community by examining the
 standards of the Subject's University25 and of two professional societies in which the Subject is
                    26
 actively involved. The University, where the Subject completed his Ph.D. and research
 assistantship, had a research misconduct policy during his attendance?7 Both professional
 societies, in which the Subject reported membership and at whose conferences he has presented
 and won awards, have relevant ethical standards. One society includes a discussion on Ethical
 Standards as part of its Guide to Conference Publications. 28 The other society's journals, in
 which the Subject has published,29 are produced by a company whose website includes an
 extensive discussion of Rublishing ethics and who uses plagiarism detection software to examine
 submitted manuscripts. 3 Given the field in which the Subject conducts research, his graduate
 school's clear standards, and the standards ofhis professional societies, the Subject's act are
 clearly a deviation from accepted standards of his research community, standards with which he
 was to be aware.




                                                                                                    of




                                                    4
SENSITIVE                                                                              SENSITIVE



                                        OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community;. (2) the research misconduct be
committed intentionally, knowingly, or recklessly; and (3) the allegation be proved by a
preponderance of the evidence. 31

                                              The Acts

        Under NSF's regulation, "Plagiarism means the appropriation of another person's ideas,
processes, results or words without giving appropriate credit." 32 The Subject plagiarized 224
1lnes, n1ne figures, and 11 embedded referenc~es frcn-n eight. solrrees i11t() o~ne unfu11ded. ~~SF
proposal, that despite claims it was unfinished upon submission, was in fact submitted to NSF
and underwent peer review. In so doing, the Subject offered material composed by others as his
own, thereby misrepresenting his own efforts and presenting reviewers with a false
representation of his knowledge of the research area. OIG concludes the Subject's actions
constitute plagiarism, as defined by NSF.

       The Subject's plagiarism constitutes a significant departure from accepted practices of his
professional community, as explained above.



        We conclude the Subject acted knowingly in plagiarizing material. Cutting and pasting
material into a proposal is inherently a knowing act. As previously explained, despite the
Subject's contention that he intended to rewrite the copied sections before finalizing Proposal I,
the evidence indicates that the Subject had previously submitted a federal proposal containing
plagiarized text. We therefore conclude the Subject's actions regarding Proposal I were
knowing.

                                         Standard o{Proo{

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.·

        OIG concludes that the Subject, by a preponderance of the evidence, knowingly
                                                               33
plagiarized, thereby committing an act of research misconduct.    .




31
   45 C.F.R. § 689.2(c).
32
   45 C.F.R. § 689.1(a)(3).
33
   45 C.F.R. part 689.


                                                 5
SENSITIVE                                                                               SENSITIVE


                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

        (1) How serious the misconduct was; (2) The degree to which the misconduct was
        knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a
        pattern; (4) Whether it had a significant impact on the research record, research
        subjects, other researchers, institutions or the public welfare; and (5) Other
        relevant circurnstances. 34

                                                    Seriousness

       The Subject's actions are a violation of the standards of scholarship and the tenets of
general research ethics. Copied text serves to misrepresent one's body ofknowledge, presenting
reviewers with an inaccurate representation of a proposal's merit Additionally, the amount of
plagiarism is extensive.

                                                       Pattern

       The only other proposal the Subject solely authored and submitted to a federal entity on
behalf of the Company also contained extensive plagiarism.


                                                Recommendation

Based on the evidence, OIG recommends that NSF:

        •    Send the Subject a letter of reprimand notifying him that NSF has made a finding of
             research misconduct 35
        •    Require the Subject to certify to the Assistant Inspector General for Investigations
             (AlGI) his completion of a responsible conduct of research training program and
                                                                                                 6
             provide documentation ofthe program's content within 1 year ofNSF's finding?
             The instruction should be in an interactive format (e.g., an instructor-led course) and
             specifically include discussion on citation practices.

For a period of three years as of the date ofNSF's finding:

         •    Require for each document (proposal, report, etc.) to which the Subject contributes
              for submission to NSF (directly or through his institution),
                  o the Subject to submit a contemporaneous certification to the AlGI that the
                     document does not contain plagiarism, falsification, or fabrication. 37

34
   45 C.F.R. § 689.3(b).
35
   A Group I action45 C.F.R. 689.3(a)(l)(i).
36
   This action is similar to Group I actions 45 C.P.R. 689.3(a)(l).
37
   This action is similar to 45 C.P.R. 689.3(a)(l)(iii).


                                                           6
 SENSITIVE                                                                                SENSITIVE


                      o   the Subject to submit contemporaneous assurances from a responsible official
                          of his employer to the AlGI that the document does not contain plagiarism,
                          falsification, or fabrication. 38      J                      .




                            The Subject's Response to Drafflnvestigation Report

      We provided the Subject with a copy of our draft report and attachments for comment.
The Subject chose not to respond to our report.




38
     A Group I action 45 C.P.R. 689.3(a)(l)(iii).


                                                      7
